<html>
<title> - INTELLIGENCE SHARING AND TERRORIST TRAVEL: HOW DHS ADDRESSES THE MISSION OF PROVIDING SECURITY, FACILITATING COMMERCE, AND PROTECTING PRIVACY FOR PASSENGERS ENGAGED IN INTERNATIONAL TRAVEL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   INTELLIGENCE SHARING AND TERRORIST TRAVEL: HOW DHS ADDRESSES THE 
 MISSION OF PROVIDING SECURITY, FACILITATING COMMERCE, AND PROTECTING 
         PRIVACY FOR PASSENGERS ENGAGED IN INTERNATIONAL TRAVEL

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM

                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2011

                               __________

                           Serial No. 112-49

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
73-736                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Brian Higgins, New York
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Jeff Duncan, South Carolina              (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
               Hope Goins, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Jackie Speier, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     3

                               Witnesses

Mr. David Heyman, Assistant Secretary for Policy, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     4
  Joint Prepared Statement.......................................     7
Ms. Mary Ellen Callahan, Chief Privacy Officer, The Privacy 
  Office, U.S. Department of Homeland Security:
  Oral Statement.................................................    12
  Joint Prepared Statement.......................................     7
Mr. Thomas Bush, Executive Director of Automation and Targeting 
  Office of Intelligence and Investigative Liaison, Customs and 
  Border Protection:
  Oral Statement.................................................    14
  Joint Prepared Statement.......................................     7


   INTELLIGENCE SHARING AND TERRORIST TRAVEL: HOW DHS ADDRESSES THE 
  MISSION OF PROVIDING SECURITY, FACILITATING COMMERCE AND PROTECTING 
         PRIVACY FOR PASSENGERS ENGAGED IN INTERNATIONAL TRAVEL

                              ----------                              


                       Wednesday, October 5, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Long, Speier, Hochul, and 
Hahn.
    Also present: Representative Jackson Lee.
    Mr. Meehan. The Committee on Homeland Security, 
Subcommittee on Counterterrorism and Intelligence will come to 
order.
    The subcommittee is meeting today to hear testimony 
regarding how the Department of Homeland Security addresses the 
mission of providing security, facilitating commerce, and 
protecting the privacy of passengers engaged in international 
travel.
    I would like to welcome everyone to today's subcommittee on 
counterterrorism and intelligence hearing. I look forward to 
hearing from today's witnesses on the value and efficacy of the 
Passenger Name Record program in our on-going mission to 
prevent terrorists and other dangerous criminals from entering 
the United States.
    I further look forward hearing and learning about the 
status of on-going negotiations with our partners in the 
European Union with regard to the 2007--I am going to refer to 
this from this point forward as PNR, the Passenger Name Record, 
so we don't have to continue to do it, but the 2007 PNR record 
as well as the privacy concerns that David raised.
    But before I begin, I think especially on a committee like 
this it is so appropriate to take a moment to recognize the 
tremendous victory that was achieved by our U.S. military 
intelligence communities in locating and killing Anwar Al-
Awlaki last Friday.
    Awlaki was one of the worst perpetrators of terrorism and 
one of the United States' most real enemies. He was involved in 
multiple attacks against the U.S. homeland including the Fort 
Dix six plot, which occurred in my backyard; the Fort Hood 
attack; the Christmas day 2009 attack over Detroit; and the UPS 
cargo bomb which again landed in my airport. Or the airport in 
my district, it is not my airport.
    The world is a safer place now that Awlaki is no longer a 
part of it.
    The achievement is a great testament to the U.S. 
intelligence capabilities. It will send a clear message to 
those who seek to harm us that you won't hide, and you won't 
escape justice.
    Now today's hearing is aimed at educating our Members, and 
I think many at-large, about the ways in which the Department 
of Homeland Security collects, protects, and uses personal 
information on travelers attempting to come into the United 
States.
    Given the transnational nature of terrorism, and a desire 
of terrorist operatives to enter the United States from abroad, 
it is crucial that we act in partnership with other nationals 
around the world. We push it out a little bit further and make 
sure our skies and our ports are safe and secure from wrongful 
entry.
    In 2007 the United States and the European Union entered 
into an agreement to share with one another intelligence that 
would help all parties identify potentially dangerous 
individuals before they set foot on an aircraft, thus helping 
to disrupt the effort of terrorists and organized crime rings.
    Since 2007, the programs resulting from this agreement have 
proven to be an indispensible component in our strategy to 
thwart terrorists. In fact, in 2008 and 2009, PNR helped the 
United States identify individuals with potential ties to 
terrorism in more than 3,000 cases.
    Among these was the Mumbai attack plotter, David Headley, 
who was arrested in Chicago after U.S. authorities accessed his 
PNR data from a flight he had booked from the United States to 
Germany. Headley since pled guilty to a separate plot to murder 
journalists from a Danish newspaper.
    PNR data also identified Faisal Shahzad, the perpetrator of 
the failed Times Square bombing in May 2010, who was caught 
with the help of PNR as he attempted to escape the United 
States at JFK Airport.
    In 2010, approximately one-quarter of those individuals 
denied entry into the United States for having ties with 
terrorism, were initially tied through PNR data.
    Now in 2009, the European Union member states adopted the 
Treaty of Lisbon, and that gave greater power to the European 
Parliament. Thereafter, this parliament sought, under its new 
authority, to reject this E.U.-U.S. PNR agreement because the 
United States had negotiated bilateral memorandums of 
understanding rather than establish uniform rules with the 
European Union as a representative body.
    In addition, some members of the E.U. Parliament have begun 
to criticize the agreement for not providing stricter privacy 
protections--and I hope that you will go in to the privacy 
protections that we have--even though no violation of privacy 
rates, or breach of security, had been reported. I hope you 
will develop that point as well.
    The United States has been absolutely vigilant in assuring 
that individual privacy rights under both the U.S. and European 
law were respected.
    As many know, last month Attorney General Eric Holder 
traveled to Brussels to discuss with European lawmakers the 
collaborative efforts between the United States and the 
European Union to address mutual security concerns. Holder 
testified before the parliament's committee on civil liberties 
to attempt to assuage their fears.
    He argued that the debate over data protection is a purely 
academic one. Despite differences between the U.S. and European 
legal structures, both protect civil liberties effectively.
    Still, DHS and other components have been involved in on-
going negotiations with the European Union to amend the PNR 
agreement, and it has been on-going since 2009.
    We have been through four rounds of such discussions. In 
fact they continue on these terms which were supposed to remain 
in effect until 2014.
    Our main concern in Congress, and part of the reason we are 
holding this hearing today, is to ensure that negotiations with 
the United Nations and European Union do not impact the 
effectiveness of this agreement. The PNR programs have been 
invaluable tool in our gathering of actionable intelligence 
over the course of the 4 years. It is a tool we cannot do 
without.
    The United States was built upon principles of freedom and 
civil liberty. This country has always been a leader among 
nations of upholding the rights of the individual person, and 
it will continue to be. It is for this reason that we must 
maintain our ability to prevent those who would seek to take 
those freedoms from us from carrying out their plans.
    Privacy is a right, but so is security. One relies on the 
other.
    I look forward to hearing from today's distinguished 
witnesses and on these matters.
    Now, the Chairman recognizes the Ranking Minority Member of 
the subcommittee, the gentlewoman from California, Ms. Speier, 
for any statements she may have.
    Ms. Speier. Mr. Chairman, thank you for holding today's 
hearing and having us focus on the PNR issue.
    I would like to associate myself with the comments you made 
about the successful efforts by the President, the military, 
and the CIA in actually putting al-Awlaki to his final demise.
    I would also like to welcome the witnesses here, and look 
forward to gaining insights into how the Department of Homeland 
Security uses the PNR, including how DHS protects travelers' 
privacy. It has got to be a key component of the utilization of 
this information.
    It is, in fact, one of the most powerful tools that we have 
to combat terrorist travel. There is obviously a very important 
balancing that must go on.
    As we know, analyzing PNR can highlight high-risk travel 
patterns such as popular routes used by human smugglers and 
terrorist facilitators. This may be the only way to flag 
potentially unknown suspects who aren't on any of the watch 
lists, and who on the surface appear like any other traveler.
    PNR can be immensely important in terrorism investigations. 
Investigators can use a terrorist suspect's past travel history 
to identify travel to terrorist-safe havens as well as co-
travelers who may be associates, which can help to identify and 
disrupt the entire terrorism network.
    PNR has played a key role in many prominent terror 
investigations including that of the 2008 Mumbai attack 
plotter, David Headley, and the attempted Times Square bomber, 
Faisal Shahzad.
    But we almost missed Shahzad when he attempted to leave the 
country. So the question that we must ask is: What enhancements 
to the system have been put in place to address the 
vulnerabilities exposed by that near miss?
    Effectively combating terrorist travel hinges on the timely 
sharing of information which requires working with the airline 
companies to get the PNR data quickly and efficiently. Have 
these increased demands for timely information placed an undue 
burden on the airline companies or to the traveling public is a 
question that must be answered.
    Equally important to our cooperation with the airlines is 
our relationship with our foreign partners. How can we maintain 
lasting and mutually-beneficial agreements with our foreign 
partners to ensure the timely sharing of PNR data continues?
    One such agreement that has been the subject of public 
scrutiny and some controversy is the one we share with the 
European Union.
    Many European airports serve as the last point of departure 
to the United States for many high-risk areas of origin 
including the Middle East, Africa, and South Asia. So it is of 
the utmost importance that we maintain the robust sharing of 
information on travelers flying from Europe to the United 
States.
    ``How will proposed changes to the agreement affect our 
screening operations?'' is yet another question we must ask.
    Many people, including privacy advocates both here and 
abroad, have expressed concern about the privacy implications 
that come with obtaining customers' data from the airlines for 
counterterrorism purposes.
    Although independent reviews of the PNR information-sharing 
program have determined that the usage of PNR data by DHS has 
never unlawfully violated travelers' privacy, we must be 
mindful of these privacy concerns and ensure that DHS continues 
to uphold stringent privacy restrictions.
    The traveling public has the right to a reasonable degree 
of privacy, and they have the right to be concerned. I think we 
need to do a better job of explaining to the public the 
parameters of the U.S. Government's usage of PNR data--why we 
need it, for how long, and how is it applied.
    I am eager to learn more about the protections in place. 
How exactly do we ensure that a traveler's personal information 
is protected? How might further future modifications to the 
agreement impact privacy?
    So I hope today that we can positively contribute to that 
discussion and clear up some misconceptions about how and why 
the Government uses PNR data.
    I am also looking forward to learning more about how far 
DHS has come since 9/11 to effectively analyze data sources 
such as PNR to identify and mitigate potential threats.
    With the system CBP and DHS has at its disposal now, could 
we avoid past failures such as the Christmas day attack?
    How important is PNR data to these efforts, and what 
challenges remain?
    With that, Mr. Chairman, I yield back.
    Mr. Meehan. Thank you, Ms. Speier.
    I want to have the other Members of the committee be 
reminded that any statements that they would like to make can 
be submitted for the record.
    We are pleased to have a distinguished panel of witnesses 
before us today on this important topic.
    Let me first turn to Mr. David Heyman.
    He is the assistant secretary for policy at the Department 
of Homeland Security. Mr. Heyman is an expert on terrorism, 
critical infrastructure protection, bioterrorism, and risk-
based security.
    Previously, Mr. Heyman has served as a senior fellow and 
director of the CSIS Homeland Security Program where he led the 
research and program activities for that section.
    Additionally, Mr. Heyman has held a number of Government 
positions, including as a senior adviser to the U.S. Secretary 
of Energy and at the White House Office of Science and 
Technology policy on National security and international 
affairs.
    Mr. Heyman has testified before several committees in 
Congress and authored numerous publications, and appeared in 
various media outlets.
    I now recognize Secretary Heyman for his testimony, and ask 
that you do your best to stay within the 5-minute parameters.
    Thank you, Mr. Heyman.

STATEMENT OF DAVID HEYMAN, ASSISTANT SECRETARY FOR POLICY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Heyman. Thank you, Mr. Chairman, good morning Ranking 
Member Speier and distinguished Members of the subcommittee.
    We very much appreciate the opportunity to appear before 
you today to discuss how the Department of Homeland Security's 
prescreening of passengers, and in particular the use of PNR 
data, plays an important role in our Nation's work to prevent 
and counter terrorist and criminal threats to the homeland.
    Preventing terrorists from traveling to or remaining 
undetected in the United States remains a top priority of the 
Department, and I commend this committee for holding this 
hearing and for your support on the on-going efforts to 
renegotiate our agreement with Europe on the exchange of PNR 
data.
    Ten years ago screening passengers coming to the United 
States was limited to the Department of State's visa process 
and the inspection of a person by an immigration officer at the 
port of entry, plus whatever processes were applied at foreign 
airports and by foreign governments.
    If you were a terrorist seeking to come to the United 
States you would for all intents and purposes apply for a visa, 
purchase a ticket, and board an aircraft to America.
    There would most likely not have been checks to see if you 
were a known or suspected terrorist, no checks to see if you 
may be a risk to security based upon behavior, no checking to 
see if you were traveling on a lost or stolen passport, no 
screening of you or your luggage for explosives, little to no 
security on-board the aircraft, and no checking to see if you 
are even admissible to the United States.
    That has obviously all changed in the last 10 years.
    Back then provision of advance passenger information was 
voluntary, and even when provided by air carriers frequently 
contain inaccurate and inconsistent data. There was no 
biometric collection of visa applicants beyond photographs, nor 
for aliens seeking admission to the United States. There was 
very limited pre-departure screening of passengers seeking to 
fly to the United States.
    Today, a decade later, in response to both 9/11 and 
evolving threats and with the help and support of Congress, we 
have significantly adapted and enhanced our ability to detect 
and interdict travel threats at the earliest opportunity. PNR 
plays a central role in all of this.
    The term PNR refers to the data an airline receives from a 
traveler to book and manage travel plans, and may include the 
traveler's itinerary, payment method, and contact information.
    Just as fingerprinting was first used and became an 
important tool in criminal investigations in the beginning of 
the 20th Century, so too at the start of the 21st Century has 
PNR analysis become a vital tool for helping to identify 
terrorists and criminals.
    DHS analyzes PNR provided by the airlines to help identify, 
detect, and thwart terrorists and criminals attempting to blend 
into the traveling public, and before they commit criminal acts 
against innocent peoples.
    Our analysis of PNR data helps the U.S. Government to 
identify--as the Chairman has noted--over 1,700 unique 
suspicious activities or suspicious cases every year, and it 
has been vital in almost every high-profile terrorist 
investigation since 9/11.
    PNR data analysis has been proven to be a critical tool in 
identifying nearly every human smuggling case involving air 
travel.
    My colleague, Tom Bush, executive director for targeting 
and analysis for our customs and border patrol, will elaborate 
on the use and protection of PNR data international targeting 
programs this morning.
    In addition to the Department's PNR system being 
operationally effective, we also can be proud of our 
outstanding record of data privacy protection over the past 
decade. To ensure the protection of privacy and civil 
liberties, DHS use of PNR data is subject to oversight for 
multiple independent bodies including the Department's chief 
privacy officer, the DHS inspector general, the GAO, and as 
well as the United States Congress.
    In addition, periodic joint reviews with E.U. officials 
have confirmed the value of PNR data in protecting the 
traveling public. These reviews have confirmed our adherence to 
the highest data protection and privacy standards.
    My colleague, Mary Ellen Callahan, the Department's chief 
privacy officer, is here to elaborate further on our protection 
and privacy programs.
    Let me close by saying, over the past decade the use of PNR 
has evolved into a critical tool for ensuring the security of 
the traveling public, but also for identifying and prosecuting 
terrorists and criminals.
    The Department has accomplished all this while also 
demonstrating its firm commitment to protecting the privacy of 
travelers. Of literally billions of passengers traveling to and 
from the United States over the past decade, there has not been 
a single breach of use of PNR and violation of established 
privacy protections.
    In fact, the PNR system we have put in place has become a 
model internationally for other countries seeking to implement 
similar programs of which there is nearly a dozen now. We are 
seeing more and more countries seeking to establish their own 
PNR systems, including the European Union who we are in 
negotiations with right now.
    So let me again, thank the committee for this opportunity 
to discuss this matter, and to helping us ensure the commitment 
is maintained to achieve a security with the traveling public 
in exchange of data to accomplish that.
    I look forward to your questions. Thank you.
    [The joint prepared statement of Mr. Heyman, Ms. Callahan, 
and Mr. Bush follows:]
  Joint Prepared Statement of David Heyman, Mary Ellen Callahan, and 
                              Thomas Bush
                            October 5, 2011
                              introduction
    Chairman Meehan, Ranking Member Speier, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today to discuss how the Department of Homeland Security (DHS) works to 
prevent individuals that may pose a risk to our National security from 
entering the country--all while facilitating legitimate travel and 
commerce and protecting the privacy of individuals engaged in 
international travel.
    Specifically, I want to highlight the Department's pre-screening of 
passengers, and in particular, the use of Passenger Name Record (PNR) 
data in our work to prevent and counter terrorist and criminal threats 
to the Homeland. PNR data and analysis play a unique role in enabling 
the U.S. Government to identify both known and unknown threats. Recent 
cases underscore the vital benefit of PNR and reflect its value today--
a value that has grown in recent years as the Department has improved 
and expanded its data matching and processes. We have been able to 
advance the development, implementation, and use of this tool, while 
also protecting travelers' data and privacy.
    Other countries, recognizing the utility of PNR, have expressed 
interest in developing their own PNR systems for screening travelers. 
Our on-going negotiation with the European Union over how PNR from 
flights with ties to the European Union is handled by DHS is one 
manifestation of our ability to advance security, data protection, and 
privacy together. I commend the subcommittee for holding this important 
hearing on this topic.
Multiple Layers of Defense
    Since 9/11, we have learned that the exercise of immigration and 
border security authorities can be powerful resources used to identify 
and thwart terrorist operations at the earliest opportunity. We have 
significantly adapted and enhanced our ability to detect and interdict 
threats at the earliest opportunity by instituting a layered aviation 
and border security architecture, incorporating both seen and unseen 
assets.
    Accordingly, we have strengthened our security and screening at 
points:
  <bullet> During the travel planning phase, when a traveler seeks a 
        visa or authorization to travel;
  <bullet> Just prior to travel, when a person seeks to board an 
        aircraft at a point of departure; and
  <bullet> During travel, when a person seeks to enter the United 
        States.
    PNR is one of five automated systems that assist the Department in 
identifying travelers likely to pose a risk. The five reinforcing 
systems are: PNR; the visa application process (conducted by the 
Department of State and supported by DHS); the Electronic System for 
Travel Authorization (ESTA) for travel under the Visa Waiver Program; 
the Advance Passenger Information System (APIS), and; Secure Flight. 
These are the systems DHS uses to begin conducting screening before an 
aircraft's departure and function in conjunction with physical security 
procedures such as checkpoint screening.
                       passenger name record--pnr
    The term PNR refers to the data an airline receives from a traveler 
to book and manage travel plans, and may include the traveler's 
itinerary, payment method, and contact information. In light of the 
lessons learned from 9/11 about identifying and preventing terrorists 
traveling into and out of the United States, Congress mandated that 
carriers make PNR data available to the U.S. Government in the Aviation 
and Transportation Security Act of 2001 (ATSA, Pub. L. 107-71). 
Presently, all carriers flying to and from the United States provide 
DHS with PNR pursuant to ATSA and DHS implementing regulations. DHS 
analyzes PNR provided by the airlines to identify terrorists and 
criminals attempting to blend into the traveling public before 
committing criminal acts against innocent people. Our analysis of PNR 
data, reinforced through cooperation with Federal partners, has helped 
to identify approximately 1,750 unique suspicious cases every year, and 
has been vital in many of the United States' most well-known terrorism 
investigations since 9/11.
    To ensure the protection of privacy and civil liberties, DHS' use 
of PNR data is subject to oversight from multiple independent bodies, 
including the Department's Chief Privacy Officer, the DHS Inspector 
General, and the Government Accountability Office, as well as the U.S. 
Congress. In addition, periodic joint reviews with E.U. officials have 
confirmed the value of PNR data and our adherence to the highest data 
protection and privacy standards. The findings of these joint reviews 
are available on-line on the DHS and E.U. websites. Over the last 
decade, the Department has demonstrated its firm commitment to 
protecting the privacy of travelers. Of the literally billions of 
passengers traveling to and from the United States during the past 10 
years, there has not been a single data breach or privacy violation of 
the PNR data.
               continued threat/risk of terrorist travel
    This year witnessed the deaths of both Osama bin Laden and Anwar 
al-Awlaki, as well as the 10-year anniversary of the deadly terrorist 
attacks of 9/11. As we reflect on the past decade, it is important to 
remain cognizant of the continued, evolving threat of terrorism to the 
traveling public. Since 9/11, the threat has changed to include not 
only large-scale attacks but also smaller operations with potentially 
catastrophic effects, including the continued targeting of the aviation 
sector. One of the most important responsibilities of government is the 
protection of its citizens, a duty this Department well recognizes and 
takes seriously. Passengers have a right to privacy and protection of 
their civil liberties and personal information, but also have a right 
to know that their government is doing everything it can to ensure 
their safety and security when they board an airplane. It is necessary, 
therefore, to ensure the continued use of proven and effective security 
measures. PNR is a proven asset in the fight against terrorism and 
other transnational crimes.
           evolution of u.s. prescreening efforts since 9/11
    Ten years ago, screening of passengers coming to the United States 
was limited to the Department of State visa process, if applicable; the 
inspection of a person by an immigration officer at the port of entry; 
and any processes applied at foreign airports by foreign governments. 
Provision of advance passenger information was voluntary. There was 
very limited pre-departure screening of passengers seeking to fly to 
the United States, and there was virtually no screening of any kind for 
domestic flights beyond airport checkpoints.
    Today, in response to both 9/11 and evolving threats, and with the 
help and support of Congress, DHS has significantly adapted and 
enhanced its ability to detect and interdict threats at the earliest 
opportunity, including through the access to and analysis of PNR data 
as mandated by Congress. PNR data are analyzed in conjunction with 
other screening tools such as visa applications, the Advance Passenger 
Information System, and the Electronic System for Travel Authorization 
(ESTA). DHS analysis of PNR data is an indispensable layer in a 
comprehensive approach to security. Each tool plays a unique role in 
the screening process. ESTA and the visa issuance process (depending on 
the country and traveler) allow us to prevent a known criminal or 
terrorist from preparing to travel. Secure Flight and APIS help DHS 
decide how the carriers and CBP officers, respectively, should handle 
travelers as they prepare to board. PNR data further enable this 
decision with additional and earlier information. APIS and PNR then 
help DHS decide who warrants a secondary examination upon arrival. In 
all cases, trained DHS personnel review and analyze the results of 
these automated systems.
    As the 9/11 Commission pointed out, targeting terrorist travel is 
one of the most powerful weapons this country has to counter terrorist 
operations. Terrorists travel in order to: Identify and engage in 
surveillance of potential targets; plan attacks; receive training on 
tactics and operations; collect and transfer funds and documents; and 
communicate with other operatives. Every step along this pathway 
presents a vulnerability for would-be attackers, who must come out of 
the shadows and interact with the traveling public, the travel 
industry, and immigration and border security officials. At some point 
along the travel pathway, for example, many terrorists cross 
international borders--a step that often necessitates submitting 
advance passenger information, using a passport, and undergoing 
screening by immigration and border officials while at ports of entry.
                the role of pnr data within that system
    PNR data analysis can help identify individuals up to 72 hours 
prior to departure, including watch-listed individuals, non-watch-
listed co-travelers, and terrorists or criminals adopting known illicit 
travel patterns. DHS is able to link previously unknown terrorists and 
criminals to known terrorists or criminals by matching contact 
information, flight patterns, and other data. After this analysis is 
complete, DHS works with foreign and industry partners to interdict 
illicit travelers prior to boarding or prioritizes resources for their 
inspection at U.S. ports of entry. PNR data collection and analysis 
also support terrorist and criminal investigations, including the three 
most prominent U.S. terrorist investigations in 2009 and 2010. Further, 
PNR served as a critical tool in supporting United States Government 
efforts to investigate 9/11 threats over the tenth anniversary weekend.
    The retention of PNR data after a flight allows DHS to unravel more 
complex plots by looking at travel practices over time. Data that does 
not appear to be relevant at the time of travel can be critically 
important when tied to a specific case later. Remember that the 9/11 
plot was originally conceived in the early 1990s; an attempt on the 
World Trade Center occurred in 1993, and the actual 9/11 plot planning 
and execution began in earnest in 1996. This included numerous dry runs 
and practice flights, as well as travel for recruitment and planning. 
Retained travel data was important in securing convictions by the 
Department of Justice in a number of recent counter-terrorism cases, 
including the conviction of Mumbai plotter David Headley.
Identifying Unknowns
    Following 9/11, the United States Government collected intelligence 
on al-Qaeda and its affiliate networks and established the FBI's 
consolidated Terrorist Screening Database (TSDB) of known or suspected 
terrorists. Today, we check travelers to the United States against the 
TSDB, no matter what mode of transportation they plan to use to come to 
the United States.
    As DHS has seen in recent cases, however, intelligence and law 
enforcement agencies may have limited or no derogatory information 
about individuals who pose a real risk to the United States. In fact, 
we know that some terrorist groups are deliberately looking to recruit 
individuals who are specifically unknown and can remain undetected by 
heightened security measures. Fortunately, PNR data analysis, 
particularly of historic records, allows us to help identify 
individuals who may be unknown to us as terrorists or criminals, but 
exhibit a pattern of behavior that is consistent with known or 
suspected terrorist or transnational criminal behavior. For example, a 
few years ago, two organized crime syndicates in Latin America devised 
a simple and effective way to smuggle kidnapped children into the 
United States for sale. They would pay women to fly to the United 
States with their own children's legitimate passports but with 
kidnapped babies. The women would then return alone. By looking for 
such a pattern in PNR records over a number of years DHS arrested 11 
smugglers, removed 10 criminals and identified 37 victims. The same 
technique of analyzing travel patterns has proven effective against a 
myriad of crimes and terrorism.
    At the same time, DHS realizes that sometimes innocent travelers 
may adopt what may appear to be suspicious patterns. As a result, DHS 
has established automated procedures so if a traveler is repeatedly 
flagged for further inspection and found not to pose a risk, DHS will 
automatically ``de-flag'' the traveler in the future. Further, all 
pattern-based rules are evaluated quarterly by the DHS Chief Privacy 
and Civil Liberties Officers for effectiveness and appropriateness. A 
Customs and Border Protection (CBP) officer, however, may still 
determine that a closer inspection is warranted, depending on the 
individual circumstances and travel.
Early Identification--Activation of IAP Teams
    CBP stations Immigration Advisory Program (IAP) officers at certain 
foreign airports to work with airlines and foreign officials to 
identify high-risk and improperly documented travelers before they 
board aircraft bound for the United States. At the invitation of 
foreign partners, IAP officers make ``no-board'' recommendations to 
airlines on the basis of passenger data analysis and a review of 
individual travel documents. To be most effective, several hours before 
a flight is scheduled to depart, an IAP officer must know who will 
likely be on a flight and whether they warrant further exam prior to 
departure. Frequently, PNR data analysis is the first information IAP 
officers receive to assist in making these determinations. CBP's 
National Targeting Center--Passenger (NTC-P) analyzes PNR data received 
up to 72 hours prior to departure and provides recommendations to the 
IAP officers. NTC-P later validates this analysis with APIS closer to 
departure. IAP officers are currently posted at 10 airports in 8 
countries, and have recommended, in part based upon PNR data, a total 
of 2,875 no-boards in fiscal year 2011, including 9 No-Fly hits, 74 
confirmed Terrorist Screening Database matches, and 109 cases of 
fraudulent document use.
                     examples of pnr effectiveness
Headley, Zazi, Shahzad
    I would like to take a little time to discuss some of the high-
profile cases where PNR data analysis has been instrumental in critical 
National security investigations and prosecutions. As background, I 
mentioned earlier that analysis of PNR data have proven to be the 
critical tool for annually identifying around 1,750 suspicious cases. 
PNR data have also aided nearly every high-profile terrorist 
investigation, including: David Headley, who pled guilty for his role 
in the 2008 Mumbai terrorist attacks; Najibullah Zazi, who pled guilty 
to plotting to bomb New York City subways; and Faisal Shahzad, who pled 
guilty to attempting to detonate a car bomb in New York's Times Square. 
Just as fingerprinting was first used and became an important tool in 
criminal investigations in the beginning of the 20th Century, so too at 
the start of the 21st Century has PNR analysis become a vital tool in 
terrorist and transnational criminal investigations. DHS has also 
relied on PNR data analysis in nearly every human smuggling case 
involving air travel.
    The case of Faisal Shahzad clearly demonstrates the effectiveness 
of DHS's prescreening programs. Early in this investigation, the 
Federal Bureau of Investigation (FBI) learned of Shahzad's cell phone 
number, but had little additional information. Through good interagency 
cooperation, the FBI asked DHS if it had encountered any individual who 
reported this phone number during border crossings. DHS searched its 
PNR database for the phone number, identified Shahzad, and learned 
other information he had provided to DHS. DHS then provided the 
additional data to the FBI. Later, Shahzad attempted to flee the United 
States, but DHS's analysis of departing passenger data identified him 
before departure and DHS removed him from the aircraft.
                  strong record of privacy protection
    DHS provides robust privacy protections and strict safeguards over 
PNR data. Through a combination of law, policy, and oversight, DHS 
ensures its compliance with stringent standards of privacy and security 
in the collection and use of PNR data. DHS applies fair information 
practice principles to its collection and use of PNR, including data 
integrity, data security, purpose specification, auditing and 
accountability, individual access, and redress. Moreover, the 
Department is firmly committed to transparency when it comes to 
informing our partners and the public about its mission, including how 
we use and safeguard personally identifiable information such as PNR 
data.
    By leveraging the Congressionally-mandated authorities of the DHS 
Chief Privacy Officer, DHS is working diligently to assure all U.S. and 
international travelers that the highest standards are being applied to 
the protection of their personal information. The Chief Privacy Officer 
has managed two internal audits of DHS's use of PNR data and 
coordinated two joint reviews with the European Union since 2004. When 
preparing for the joint review that took place in February 2010, the 
DHS Privacy Office spent approximately 10 weeks of employee time 
analyzing and assessing DHS collection and use of PNR data and 
published two public reports related to that assessment. The reports 
from these audits are publicly available on the websites of the DHS 
Privacy Office and the European Union. The DHS Privacy Office found, 
and the European Union acknowledged, that there has not been a single 
incident involving the unauthorized use of PNR data.
    Individual travelers have many opportunities to learn how DHS 
handles PNR data. The PNR data rule, System of Records Notice, and 
Privacy Impact Assessment are all available for public review and 
comment. In addition, individuals, both U.S. and non-U.S. citizens, 
have multiple opportunities for access and redress. The U.S. Freedom of 
Information Act (FOIA) applies equally to U.S. citizens and non-U.S. 
citizens. Anyone can request his or her PNR data directly from DHS; DHS 
receives and answers these types of requests routinely. If the traveler 
seeks to change or delete information contained in his/her PNR, he or 
she can submit a request to DHS and changes deemed appropriate will be 
made. U.S. and non-U.S. citizens alike also have access to the DHS 
Traveler Redress Inquiry Program (DHS TRIP) to correct or amend 
records. More information on these programs can be found at 
www.dhs.gov/privacy.
                        u.s.-e.u. pnr agreements
    Despite this operational and privacy success, last year, the 
European Union sought to re-negotiate our bilateral PNR Agreement to 
obtain further reassurance that data with ties to Europe is being 
handled properly by the United States. To protect U.S. industry 
partners from unreasonable lawsuits, as well as to reassure our allies, 
DHS has entered into these negotiations.
    The Agreement currently in force provisionally, negotiated in 2007, 
is not scheduled to sunset until 2014. The Agreement is operationally 
sound, but it is subject to ratification by the European Parliament, 
which instead directed the European Commission to renegotiate the 
Agreement. As a matter of good faith and out of respect for our E.U. 
partners and their evolving political structures following enactment of 
the Lisbon Treaty, Secretary Napolitano subsequently agreed to 
negotiate a new agreement only if the new text would not degrade the 
operational effectiveness of the 2007 Agreement and would permit 
additional security enhancements where necessary. We commenced the 
latest negotiations on December 4, 2010. As such, the United States is 
currently in its fourth negotiation over PNR with the European Union in 
9 years--effectively a decade of negotiation.
    The Department is committed to concluding a new PNR agreement, 
first and foremost a security agreement, which upholds vital public 
interests in both security and privacy. We reached agreement with the 
European Commission for such a text on May 16, 2011. The text is an 
improvement over the 2007 Agreement, it protects both security and 
privacy and U.S. and European interests, it provides all relevant 
parties with legal certainty, and it is a reliable framework for an 
enduring deal.
    U.S. and E.U. negotiators worked to respond to the European 
Parliament's criticism of the 2007 Agreement, to improve passenger 
security and to provide air carriers a legally certain operating 
environment. To build support for this approach, DHS has met repeatedly 
with not only the European Commission, which negotiates on behalf of 
the European Union, but also with key Committees and Members of the 
European Parliament and representatives of individual Member States. 
The new agreement is clear, detailed, and transparent--in ways that 
some critics in Europe felt the previous Agreement was not. The text of 
the draft agreement defines key terms such as ``terrorism,'' and 
``transnational crime'' consistently with United States, European 
Union, and international norms. A data retention period acceptable for 
U.S. security purposes is maintained, with additional safeguards to 
ensure privacy and data protection. The new agreement will require 
travel information to be transmitted to DHS with greater lead time than 
provided for in the 2007 Agreement, and thus will provide for greater 
analysis earlier in the passenger travel life-cycle. It also provides 
for a new method of data transmission (``real-time'' push). By 
restricting data transmission to the minimum necessary while ensuring 
data accuracy, the real-time push method of sharing data will enhance 
security and privacy protection at the same time. Lastly, the new 
agreement will expand opportunities for police and judicial cooperation 
between the U.S. and E.U. authorities.
    I want to thank this committee for its interest and support in our 
negotiations with the European Union. With the conclusion of PNR 
negotiations with the European Commission and, we hope, forthcoming 
signature and then support from the European Parliament, the United 
States and European Union will have made progress in strengthening the 
previous PNR Agreement from a privacy and security perspective. Success 
will be the result of 9 months of intense negotiations and build off 9 
years of dialogue on how best to facilitate safe transatlantic travel 
and protect individual privacy.
    By all accounts, the new text is stronger than the 2007 Agreement; 
it addresses all E.U. concerns raised with the U.S. negotiating team, 
while also preserving and in some cases improving critical U.S. 
operational interests. We must build on our historic relationship, 
values, and interests, as we seek action by the European Commission, 
the European Council, and the European Parliament to finally conclude 
this PNR Agreement, which is without a doubt better for enhanced 
security, as well as for improved data and privacy protections.
                               conclusion
    Chairman Meehan, Ranking Member Speier, and distinguished Members 
of the subcommittee, we look forward to working with you as we explore 
opportunities to advance our cooperation with our European partners to 
counter terrorism and transnational crime. Thank you again for this 
opportunity to testify. My colleagues and I are happy to answer your 
questions.

    Mr. Meehan. Thank you, Mr. Heyman, for your testimony and 
for your good work and service in your current position.
    Next, the Chairman would like to recognize Ms. Mary Ellen 
Callahan, who was appointed the chief privacy officer and chief 
freedom of information officer by DHS Secretary Napolitano in 
March 2009.
    In her role as chief privacy officer, Ms. Callahan is 
responsible for evaluating Department-wide programs, systems, 
technologies, and rulemakings for potential privacy impacts, 
and for providing mitigation strategies to reduce any privacy 
impact.
    She and her staff have extensive expertise in privacy laws 
both domestic and international that help inform privacy policy 
development both within the Department and in collaboration 
with the rest of the Federal Government.
    Prior to joining DHS, Ms. Callahan was a partner with the 
law firm of Hogan & Hartson where she specialized in privacy 
and data security law.
    In 2011, Ms. Callahan received the Federal 100 award which 
recognizes individuals in Government and industry that make 
significant contributions to the Federal I.T. community.
    I now recognize Ms. Callahan to testify for 5 minutes.

 STATEMENT OF MARY ELLEN CALLAHAN, CHIEF PRIVACY OFFICER, THE 
      PRIVACY OFFICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Callahan. Thank you very much.
    Good morning, Chairman Meehan, Ranking Member Speier, and 
distinguished Members of the subcommittee.
    My name is Mary Ellen Callahan. I am the chief privacy 
officer at the Department of Homeland Security.
    As the Chairman acknowledged in his introduction, I am 
responsible for evaluating Department-wide programs, systems, 
and technology for potential privacy impacts including the 
Department's use of passenger name records--and I will take 
your cue and call it PNR--through Customs and Border 
Protection's Automated Targeting System. I will also refer to 
this as ATS.
    DHS provides privacy protections and strict safeguards over 
PNR data. DHS ensures its compliance with stringent standards 
of privacy and security in the collection of use of PNR.
    DHS applies fair information practice principles to its 
collection and use of PNR including data integrity, data 
security, purpose specification, auditing and accountability, 
individual access, and redress--the principles which I will 
detail in my testimony this morning.
    Moreover, the Department is firmly committed to 
transparency when it comes to informing our partners and the 
public about its mission, including how we use and safeguard 
personally identifiable information such as PNR data.
    My office has managed three internal audits of DHS' use of 
PNR data and coordinated two joint reviews with the European 
Union since 2004. For example, when preparing for the joint 
review that took place in February 2010, the DHS privacy office 
spent approximately 10 weeks of employee time analyzing and 
assessing DHS collection and use of PNR data, and published two 
reports totaling 65 pages related to that assessment.
    My staff conducted multiple interviews, reviewed the PNR 
data use in sharing audit trails, and SOPs for ATS.
    We also reviewed the logs in ATS associated with whether 
sensitive data had ever been accessed by DHS. It had never been 
accessed.
    Through these two joint PNR reviews, the DHS privacy office 
found, and the European Union acknowledged, that there has not 
been a single privacy incident or data breach involving the 
unauthorized use of PNR data.
    These public compliance reviews conducted by my office 
confirm the original intent of the data collection, and provide 
public assurance that the information is being used for the 
purposes for which it had been collected. The pattern-based 
rules that are referred to in our written testimony, that DHS 
employees are also subject to my review, as well as that of the 
officer for civil rights and civil liberties, and the Office of 
General Counsel.
    On a quarterly basis, we review these pattern-based rules, 
the underlying intelligence that supports the rules, and the 
impact effectiveness and efficacy of the rules themselves.
    This periodic oversight and review allows DHS to perform 
its border security task in a privacy-protective way.
    In addition to my statutory authorities related to privacy 
compliance, the DHS privacy office is involved in data 
governance and information sharing in the Department through 
the chief information officer and his counsels, departmental 
compliance with FISMA, I.T. budget review, and the information 
sharing and governance board.
    This type of integrated, ex-anti and ex-post assessment and 
review by the DHS privacy office is one of the virtues of the 
senior position my office has within the Department, with 
visibility and oversight through the data life-cycles of DHS 
programs, systems, and technologies.
    As the committee knows, I have had the pleasure of serving 
as the Department's chief FOIA officer as well. One of the ways 
the Department supports the privacy fair information practice 
of individual participation is to provide travelers with 
multiple opportunities for access and redress.
    FOIA applies equally to U.S. citizens and non-U.S. 
citizens. Anyone can request their PNR directly from DHS. DHS 
receives and answers these types of requests routinely. Based 
on a recommendation by the European Commission in the 2010 
review, we now track that number discretely.
    Since April 2011, DHS has received approximately 220,000 
FOIA requests from around the world. In that same time period, 
we have received 69 FOIA requests from travelers seeking their 
PNR records.
    If a traveler seeks to change or delete information 
contained in his or her PNR, they can submit a request to DHS 
and changes deemed appropriate will be made. The administrative 
appeals through my office are also available.
    This existing opportunity was strengthened through the 
Department record amendment policy that was released earlier 
this year.
    Furthermore, U.S. citizens and non-U.S. citizens alike have 
access to the DHS traveler redress inquiry program to resolve 
travel-related inquiries such as the use of PNR.
    In sum, the DHS' collection and use of PNR, and my office's 
involvement throughout the PNR life-cycle, demonstrates the 
Department's commitment to embedding privacy principles within 
the Department's operations.
    I look forward to your questions, sir.
    Mr. Meehan. Thank you, Ms. Callahan.
    Last, let me turn to Mr. Thomas Bush, the executive 
director of automation and targeting for the Customs and Border 
Protection Office of Intelligence and Investigative Liaison.
    Mr. Bush and his staff are responsible for assessing and 
reporting the threats that the United States Customs and Border 
Patrol faces through research, evaluation, and dissemination of 
trend analysis, intelligence alerts, and assessments.
    Mr. Bush began his career as a program analyst for the 
Department of Defense strategic defense initiative and entered 
the United States customs service in 1994.
    In 2006 Mr. Bush joined the Office of Antiterrorism where 
he acted as executive director prior to the establishment of 
the Office of Intelligence and Operations Coordination in 2007.
    His numerous honors include the 1998 Commissioner's Unit 
Citation Award and the 2003 Commissioner's Annual Award for 
Innovation, and the 2008 Secretary's Award for Excellence.
    I now recognize Mr. Bush to testify for 5 minutes.
    Mr. Bush.

STATEMENT OF THOMAS BUSH, EXECUTIVE DIRECTOR OF AUTOMATION AND 
  TARGETING OFFICE OF INTELLIGENCE AND INVESTIGATIVE LIAISON, 
                 CUSTOMS AND BORDER PROTECTION

    Mr. Bush. Good morning Chairman Meehan, Ranking Member 
Speier, distinguished Members of the subcommittee. Thank you 
for this opportunity to provide background on PNR today.
    PNR is the data that an airline receives from travelers to 
book and manage their reservations. This can include the 
traveler's itinerary, payment method, and contact information.
    It is one of our most important tools in the on-going fight 
against terrorism, as well as narcotics smuggling, human 
trafficking, and other transnational crime.
    I will address how we get this data, how we use it, and how 
it has helped us in the past.
    CBPs predecessors, the U.S. Customs Service and the 
Immigration and Naturalization Service, began receiving PNR 
data from commercial airlines on a voluntary basis in the early 
1990s. The carriers recognize that working closely with U.S. 
law enforcement to intercept high-risk travelers would in turn 
yield benefit for enhanced security on their flights.
    Shortly after September 11, 2001, Congress began mandating 
that the airlines provide PNR to U.S. Customs Service, now CBP. 
Since then, CBP has had electronic access to the PNR data of 
every airline with an electronic reservation system operating 
international flights to and from the United States.
    I would also like to add that CBP works closely with our 
partners in the Department of Homeland Security's oversight 
offices, the chief privacy officer, and the civil rights and 
civil liberties officer to ensure transparency in how we use 
PNR at CBP.
    We also have established clear guidelines for our officers 
and what they can and cannot do with the data. Not every 
employee in CBP needs to have access to PNR, but those that do 
respect PNR as a powerful tool in their decision-making 
process.
    CBP maintains PNR in our automated targeting system or ATS. 
The system parses the data into discrete elements, analyzing it 
in conjunction with other DHS traveler holdings. This allows 
CBP officers and analysts to use a variety of information, to 
identify those travelers posing the highest risk before they 
board airplanes overseas.
    CBP officers and analysts use PNR in conjunction with other 
data and law enforcement intelligence information to establish 
risk-based scenarios for the interception of previously unknown 
high-risk subjects--in other words, those not on the watch 
list. These scenarios, or pattern-based rules, allow officers 
to make faster and better-informed decisions about which 
travelers to interview and secondary examination.
    PNR data is also useful to trend analysis. It is unique and 
it allows CBP to see a traveler's full itinerary and contact 
information such as phone numbers and e-mail address. This can 
be very powerful in establishing connections with other 
travelers who may arrive from different locations or different 
times, and who may appear to be otherwise unconnected.
    I will cover a few of our success stories.
    One important example of it is the case of Najibullah Zazi. 
You may recall Zazi as the al-Qaeda-trained operative who 
planned to explode improvised explosive devices in New York 
City's subway system.
    Using PNR data, DHS and CBP worked closely with the FBI to 
cross-check the names of his co-travelers against open 
counterterrorism cases inside the United States, and determined 
his co-travelers were being trained during the same trips to 
Pakistan in the same training camps.
    Zazi was arrested on September 19, 2009 and the information 
from his PNR records were used in his questioning and his 
indictment. Zazi pled guilty in February 2010.
    Another example of CBP's ability to fully leverage PNR 
holdings--specifically about those we have very little 
information or those we call the unknowns.
    Law enforcement intelligence information implicated a 
specific person in the plotting of the 2008 Mumbai attacks as 
well as the possible attacks against a Danish newspaper office. 
Starting with the very common first name, David, a partial 
travel itinerary, and a very vague travel time frame, CBP was 
able to review its PNR data in connection with other DHS 
databases.
    Within 24 hours CBP was able to provide the FBI with the 
person's full name, address, passport number, travel history, 
and other information useful to law enforcement pursuing him. 
You may know that person as David Headley who pled guilty in 
March 2010.
    A third example of how CBP's use of PNR and has been 
successful also demonstrates when we receive the data.
    In the case of Faisal Shahzad, who attempted to use the car 
bomb in Times Square in May 2010, CBP used PNR in the first 
place to target him on his flight returning from Pakistan. It 
was also used to intercept him when he tried to flee the plot 
after it was unsuccessful.
    After a stay in Pakistan, in which was later determined 
Shahzad underwent terrorist training, Shahzad arrived in the 
United States and was flagged for screening based on 
information in his PNR. CBP conducted an examination and 
released him after finding no reason to further detain him.
    After the failed attack, the FBI, in coordination with DHS, 
learned of Shahzad's identity from a phone number in his 
attempt to purchase the car that was linked to the PNR data, 
and our reporting on that examination.
    Based on previous information, CBP created travel lookouts 
on Shahzad which enabled us to intercept him before he 
hurriedly booked his PNR in an attempt to leave the United 
States on a flight out of JFK.
    Shahzad confessed and was sentenced to life prison in June 
2010.
    Two other examples that are in human smuggling are cases in 
Korea of sex trade--they also were connected to Sri Lanka. PNR 
was used for us to target the travel routes and the travel 
agencies used by those perpetrators in November 2009.
    A separate human smuggling case working with Interpol, we 
were able to use PNR data to detect payment address information 
and e-mail information that connected to Eastern European human 
smuggling cases. This was in August 2009.
    PNR uniquely and solely provides CBP with the ability to 
identify the true point of origin for travel. Without it CBP 
often mistakes the origin of travel at that last point of 
departure to the United States--take an example for Heathrow 
versus an originating travel in Pakistan.
    PNR also allows CBP to see all the stops along the way.
    PNR also affords CBP the opportunity to determine 
suspicious booking and payment methods such as last-minute 
ticket purchase, cash tickets, or one-way tickets.
    Mr. Meehan. Mr. Bush, can I ask you--these are all good 
things and perhaps these are some of the things you can develop 
for us in your testimony.
    Do you have a closing observation for your direct 
testimony?
    Mr. Bush. Other than I just noticed I was over. I 
apologize.
    Mr. Meehan. I can see you----
    Mr. Bush. Part of the excitement.
    Thank you, sir.
    Mr. Meehan. It does. It is interesting stuff.
    Particularly, you are getting a chance to layout your 
trophy case and I think it is a significant record.
    I want to thank each of you for your testimony here.
    First, how inherently important it is because the record 
demonstrates the things that have been accomplished by virtue 
of the work that has been done with PNR.
    Second as you have testified here today, each of you in 
different parts there is a lot of work that has gone into 
protecting the integrity of this information, and the audits 
have shown that we haven't had violations.
    With that premise, we really do want to find the balance of 
assuring privacy while protecting the safety of Americans 
traveling.
    So, Mr. Heyman, let me start with you because this is the 
kind of a thing that if you aren't close to it and you drill 
down to it, you know, just the terminology can overwhelm you.
    Effectively, what kind of information are we using when we 
are engaged with PNR?
    Isn't it in many ways the kind of information that the 
people should have an expectation that they are already 
currently sharing? It is just using that information in a more 
effective manner than we have in the past.
    Mr. Heyman. Thank you, Chairman.
    You are absolutely right. The balancing act that we have 
sought to accomplish, and I think frankly effectively have, is 
the balance that says passengers have a right to privacy and 
protection of their civil liberties and personal information.
    But when they get on the airplane they also have a right to 
know their Government is doing everything they can to make sure 
that that flight is going to be safe. We do that through a 
number of different things that I have outlined, but included 
and most important, the PNR record.
    The PNR record is basically the information that you 
provide an air carrier when you book a travel plan. So it is 
your seat number. It is your destination. It is your routing.
    It is perhaps how you purchased the ticket. There are about 
19 types of fields that are included and include personal 
information such as your name and----
    Mr. Meehan. But not inherently private information per se, 
right?
    Mr. Heyman. Well, I will let my privacy officer speak to 
the specifics about how privacy is accounted for. But it is 
information that you share with the airlines and then they 
share it with the Government for the purposes of the evaluation 
about whether an individual presents a risk getting on that 
aircraft.
    We take that responsibility quite seriously. We have data 
protection for ensuring that only the information of those 19 
fields are preserved.
    The specifics about sensitive information that people are 
concerned about, we do not use that. It is our policy not to 
use sensitive information----
    Mr. Meehan. Well, let me drill down to that for a moment 
because that is the essence of what we are really talking 
about, I think.
    We have demonstrated over a course of period of time the 
effectiveness of PNR and the importance that it plays. You have 
also been able to create a record in which it has withstood 
scrutiny up to this point in time.
    So what is really at play here with the European Union now 
coming back and challenging what has been a program which I am 
presuming has not only worked effectively, but my assumption is 
you developed more fields of information that its effectiveness 
only grows?
    Mr. Heyman. Well, that is a great question.
    What is at play? There is a lot of play here, some of it 
having to do with institutional reform in Europe post-Lisbon 
where the parliament now has a responsibility for approving 
agreement.
    Previously the pathway to an agreement with the United 
States would be the commission negotiates an agreement and 
member states sign off on it. Now, the parliament also must 
vote on it. Seven-hundred-plus members of the European 
parliament will vote thumbs up or thumbs down.
    Parliament for the last decade or so has made past 
resolutions in Europe requesting and urging the commission to 
provide more for data protection on these types of information-
sharing agreements.
    Now that they have an opportunity to vote up or down in 
this past year, they requested that the commission come back to 
the United States and seek a renegotiation of the----
    Mr. Meehan. The point of it is, individually many of these 
member nations have not only appreciated the significance of 
the protections afforded to safety, but they have agreed and 
participated with you in the zones of information that should 
be shared. Is that right?
    Mr. Heyman. In fact, yes. I believe it is 23 or 24 of the 
27 member states ratified the 2007 or re-passed the 2007 
agreement.
    Mr. Meehan. Do we share information with them in a return 
capacity because there are people that fly through airlines 
that either go through the United States or from the United 
States to their countries?
    Mr. Heyman. Yes. We may on a case-by-case basis share 
information. At this point the Europeans as a group don't have 
a PNR system. They proposed one which may take several years to 
stand up. Some member states--the Brits in particular--have 
begun to stand up their own PNR system in which case we would 
have that type of exchange.
    Mr. Meehan. Well----
    Mr. Heyman. Protected also--protected with the same data 
protection and privacy protections that we seek in our own 
agreements.
    Mr. Meehan. My time has expired for now. But I know that 
there is an interest in the broad spectrum that all of us 
will--have to share.
    So I turn it over to the Ranking Member, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    So let me follow up on the Chairman's questioning.
    Does the 2007 agreement stay in place pending the 
negotiations on the 2011 agreement?
    Mr. Heyman. Yes, it is provisionally in effect.
    Ms. Speier. All right. We prefer the 2007 agreement to the 
2011 agreement?
    Mr. Heyman. Well, let me just give a little background on--
Secretary Napolitano, when she agreed to renegotiate the 
agreement, agreed with two fundamental principles that we must 
adhere to. The members here are part of the negotiating team 
here--your witnesses.
    So No. 1, she directed us that we have to maintain the same 
operational effectiveness as 2007. So there is no degradation 
in existing operational capabilities. The 2007 agreement 
provides us with exceptional operational capability.
    No. 2, that a new text must permit additional security 
enhancements where necessary or appropriate, so we have been 
given guidelines or direction that we will have no degradation 
and operational----
    Ms. Speier. Mr. Heyman, excuse me for interrupting.
    I am trying to get to what the crux of the issue is with 
the 2011 agreement.
    Would you say that the expectation of the European Union to 
have greater privacy protections is what is stalling the 
negotiations?
    Mr. Heyman. The Europeans seek--what has stalled--the 
negotiations have proceeded as directly as we can. We concluded 
what we believe is a good text in May this past year.
    They have a number of institutional hoops that they must go 
through. The commission must now get the member states onboard. 
The member states then pass it, and they have to give it to the 
parliament. There are some institutional things that must get 
accomplished.
    But as far as we are concerned with perhaps a couple of 
other discussions, we are pretty much satisfied with the text 
as created in May 2011.
    Ms. Speier. So there are no disputes pending?
    Mr. Heyman. The Europeans have to go through their own 
institutional requirements, and so there is still discussions 
going on.
    Ms. Speier. Okay. Can you just tell me if there is anything 
outstanding?
    Mr. Heyman. From the European side there are, yes.
    Ms. Speier. Okay. What are they?
    Mr. Heyman. The Europeans have a legal opinion that has 
been put forward by the commission that says that the May text 
that was leaked to the public is not proportionate, which is a 
standard by which data protection and data use must be adhered 
to.
    So, they are working through that challenge right now. We 
are open to hearing their proposals for how to fix that 
problem.
    But it is on the European side.
    Ms. Speier. What do you mean by proportional?
    Mr. Heyman. So--why don't you----
    Ms. Callahan. The proportionality is a concept that is in 
the European law particularly vis-a-vis the member states to 
the European Union. It is one that has been incorporated into 
the data protection or privacy directive of 1995.
    Proportionality is actually a concept that has multiple 
meanings within Europe. One meaning is you should only take the 
information that you need in order to do your job. So the 
number of fields that you collect from the airline, the 19 
fields that Mr. Heyman spoke about.
    Another concept of proportionality that we have heard 
discussed is that you only collect information from the people 
that you need to collect the information from. From, for 
example, the bad guys, from the criminals.
    Now that of course, as Mr. Bush elaborated on we don't know 
who all the bad guys are. We have unknown terrorists out there, 
and so that is not necessarily possible.
    Then there is proportionality in terms of the scope of the 
enforcement and the application.
    Each time we talk about proportionality, we hear a 
different definition. So the definition in European Union law 
is quite broad, which is why to say that the, ``agreement'' is 
not proportionate is difficult to pin down in terms of how to--
--
    Ms. Speier. Okay.
    What are the 19 fields? Can someone just rattle those off 
for us?
    Ms. Callahan. Mr. Bush.
    Mr. Bush. I can try to do most of them, ma'am, and get 
you----
    Ms. Speier. All right. I have got 30 seconds so----
    Mr. Bush. Travel itinerary, which covers a few of the 19 
fields: Name, date of birth, payment information, e-mail 
address, phone number. If you have associates, co-travelers on 
your ticket, you are sharing, travel agency, travel agency 
address.
    Ms. Callahan. Co-chair.
    Mr. Bush. Co-chair if it splits. So if United needs to 
share with another airline as an example. I think that covers--
bags and seat assignment.
    Ms. Speier. All right, thank you.
    Mr. Bush. We can get you the full details.
    Mr. Meehan. Thank you, Ms. Speier.
    The Chairman now recognizes the gentlelady from California, 
Ms. Hahn.
    Ms. Hahn. Mr. Chairman and Ranking Member Speier, this has 
been a very interesting hearing. Thank you for your testimony.
    It is certainly--and, you know, I have a statement that I 
can enter into the record. I won't give it now.
    But clearly PNR is an important tool that I think we use in 
this country to clearly, as was stated, to connect the dots. I 
guess the key is making sure we have the right dots, and then 
the real work begins on connecting those dots.
    But we have certainly had some pretty impressive success 
stories to tell which I think is important.
    You know, reading some of the background materials, I think 
the real problem is parliament. You know, when you read some of 
the quotes from the members of parliament, they are the ones 
that look like they could very well veto this or block it.
    It doesn't seem like there is some real instances of abuse 
that they can point to after we have collected this 
information. But it is just a basic overall belief that data 
collection has sort of gotten to an extreme, and privacy, just 
on that basis, for them it sounds like to be violated.
    So I think that is going to be the real issue--is their 
parliament.
    You know, one of the things--you know, my district in 
California borders Los Angeles International Airport. It also 
borders the Port of Los Angeles.
    Now, I am wondering--you know, the airport police in many 
of our airports in this country, certainly are sort of a 
separate law enforcement agency. I am wondering how this 
information is communicated to our airport police and vice 
versa--our airport police, agencies across this country in an 
information-sharing loop with the Department?
    The other thing I was certainly wondering, it is always my 
concern is I think our real vulnerable points of entry into 
this country are our sea ports.
    Wondering, does this also include--does the PNR also 
include passengers who would be coming into this country 
through cruise ships, for instance? Is that an area of concern?
    Because it is for me, and wondering where we are in really 
looking at information for those who come into this country on, 
you know, some major cruise ships certainly from Europe--so 
just kind of two questions.
    Mr. Heyman. Thank you, Congresswoman.
    Let me say that first of all in the broader context, also 
to the Ranking Member's question, that we are satisfied with 
the text as we have negotiated and look forward to the 
commission advancing that to the council for approval. We look 
forward to the council approving it and giving it to the 
parliament and voting positively on that.
    In terms of a law enforcement cooperation, we have added 
into the new text some ability to facilitate greater 
cooperation in law enforcement. But as it pertains to U.S. law 
enforcement, the provisions that would be most important really 
apply to our Federal law officials.
    When somebody gets off an airplane from another country 
they go through customs and borders. So the information PNR 
records are evaluated in advance of arrival, as is other 
information so that if there is additional screening that is 
required, our customs officials take that into account.
    Then the third point, on sea ports, we do look at PNR for 
people coming in to our ports.
    Ms. Hahn. Is it as extensive as--are we connecting the dots 
as much in that area, do you believe?
    Mr. Bush. PNR as an industry tool is not as well-developed 
in the sea environment, but we do have the same ability to 
connect the dots and do run the same pattern-based rules and 
use the automated targeting system on cruise ships.
    Ms. Hahn. I just want to go on record to say, again, my 
concern will always be on this committee as well as Homeland 
Security Committee--I mean, on the subcommittee, is that our 
sea ports, I believe are still an extremely vulnerable entry 
way into this country, both with cargo and with passengers.
    I just want to go on record saying that.
    Mr. Meehan. Thank you, Ms. Hahn.
    The Chairman now recognizes the gentlelady from New York, 
Ms. Hochul.
    Ms. Hochul. Thank you, Mr. Chairman, Ranking Member.
    My district is on the border of Canada. What standards are 
in place with respect to airlines that come in from Europe, 
stop in Toronto and continue to the United States?
    We have a different set of standards for Canadian and 
Mexican-originated flights versus what is considered at the 
European Union or identical standards.
    You can just enlighten me a little bit on that before I ask 
my next question.
    Mr. Heyman. We have the same standards and requirements for 
all of those flights. The secure flight program that the 
Department of Homeland Security put in place also requires 
information are provided for all the flights.
    So, if a flight were to go to Canada but not to the United 
States, we would still be able to do the risk assessment for 
U.S. security.
    Ms. Hochul. Have any of our other partner nations outside 
the European Union raised any privacy concerns or any issues or 
is this it?
    Ms. Callahan. With regard to privacy concerns and the use 
of passenger name records, it has exclusively been a 
conversation with the European Union.
    Mr. Heyman. Let me elaborate.
    Actually, there are 250 some-odd last points of departure 
where we require, because of Congressional law, passenger name 
records to be provided in advance of a flight.
    Some of those are in Europe, but the bulk of them are 
outside of Europe. The European agreement is the only one that 
we have for that.
    Ms. Hochul. If we are not successful in negotiating this 
agreement with the European Union, what is the effect?
    The 2007 agreement stays in effect until 2014? Is that how 
it is?
    Okay. So we are not bumping up against a wall just yet. You 
are just having these negotiations at the stage that we are not 
under the gun. We are not going to have this program suspended 
any time soon, correct?
    Mr. Heyman. That is correct. The Europeans have said that 
the agreement is provisionally in effect until negotiations are 
concluded.
    Ms. Hochul. I know that some have suggested that we suspend 
the visa waiver program for European countries if we are unable 
to negotiate, that. Given that about 16 million people come in 
from Europe to our country, do you think you could handle that 
additional workload if that would be the case?
    Yes. I didn't think so.
    [Laughter.]
    Ms. Hochul. What would be the effect?
    Would that compromise the program we have in place with the 
additional workload? What is your opinion?
    Mr. Heyman. Actually, first of all it would be terrific if 
we were to expand our trade-travel opportunity for people who 
come to the United States. I think it would be a good 
investment in America. So I think it is a positive step in the 
right direction.
    I don't have the technical specifications in terms of our 
data analysis capabilities. That is why I was looking over to 
Tom.
    But I suspect first of all this would be ramped up over a 
period of time, and so we would in fact be able to match the 
increase if there was a need.
    But right now, I think we have the capacity for additional 
expansions. Is that right?
    Ms. Hochul. I am very pleased with how this program is 
working. But how often do you get the situation where you do 
get someone who is innocent or has the same name, who has to go 
through additional scrutiny.
    Are you able to quickly correct those?
    I know you talked about the people who can file the FOIA 
request and they can correct their record. Early stories were 
not that simple.
    I mean people from my district, it took a long time to get 
themselves off the list just because I have a community--the 
Yemenites in my community, others were getting more trouble.
    Again, I am supporting what you do. I don't want to 
compromise the heart of your program.
    But I just want to make sure--you said you have made 
progress in having people removed from that list who have the 
same name, but have no other reason to be tracking them or 
giving them additional secondary or additional screening.
    Ms. Callahan. DHS takes the issue of providing people 
appropriate redress and opportunities. The traveler redress 
inquiry program, I mentioned briefly in my oral statement, has 
really helped to assist to have a Department-wide process.
    For example, you may think that you had a problem at the 
border because it was a passenger name record issue. But indeed 
it was something unrelated, therefore they transitioned it.
    That has shown great improvement in that we do think that 
is effective in getting innocent people to have appropriate 
redress.
    Ms. Hochul. Okay. Thank you very much.
    I yield back the balance of my time, Mr. Chairman.
    Ms. Speier. Mr. Chairman, I would like to request unanimous 
consent that the gentlewoman from Texas, the Ranking Member on 
the subcommittee on transportation security, Congresswoman 
Jackson Lee, be allowed to participate in this hearing.
    Mr. Meehan. Without objection, so ordered.
    The Chairman now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. First order of business is to thank you 
for your courtesies and to acknowledge the importance of this 
hearing to the Ranking Member and Chairman, and express my 
interest because of the subcommittee that I have been involved 
in as it relates to this important issue.
    So, I would like to just--well, first of all welcome the 
witnesses and ask maybe a question that has already been asked.
    We know that--though may not be directly related but we 
know that travel has generated, by a number of culprits, 
incidences that have harmed the homeland, from the shoe bomber 
to the trial that is going on in Detroit as we speak that was a 
traveler and decided to use methods that we had not confronted 
in the past.
    So I guess I am going to ask this general question in 
helping us in transportation security--since we deal with the 
international travel as well. Focusing mainly on passenger 
travel--is the kind of framework that we see going forward in 
the 21st Century, and the climate that we are in, and where we 
are seeing individual actors--I consider terrorism now a 
franchise.
    There is no battalion that shows up at your doorstep, maybe 
just an individual.
    How do we pierce that?
    Do we pierce that veil with the human resource intelligence 
or do we need more armor?
    Do we need more armor and intelligence at the gateway? In 
this instance, I am talking about planes, though I know that 
trains are in the eye of the storm too. But is it more of a 
focus on human resource or human intelligence rather?
    If I could get that answer from all three of the witnesses, 
please.
    Mr. Heyman. Thank you, Congresswoman. That is really one of 
the most important questions, is: How do we look forward in the 
21st Century to securing air travel and travel in general?
    The Department of Homeland Security takes this issue very 
seriously. We have put in place over the last decade, I think, 
an approach which attempts to achieve exactly what you have set 
forth.
    No. 1, we have to have multiple layers from the 
authorization of travel visas, ESTAs, Advanced Electronics 
Travel Authorization. That needs to be scrutinized.
    From the decision to book travel, PNR records and the other 
pre-travel engagement that a traveler makes, we can do scrutiny 
there.
    Checkpoints at the airports is another layer. When a person 
gets on an aircraft we have security on planes. Then before 
they get to the United States there is additional scrutiny.
    So we have a number of layers of defense that we have put 
in place to ensure that we prohibit, and prevent, and detect 
those who seek to do harm from even getting on a plane to begin 
with. That is with a system that Congress has helped put 
together through a number of laws and appropriations over the 
last decade.
    I think the PNR system that we have now have been 
discussing today plays a central role in that.
    It allows for us to do not just detection of those who are 
known or suspected terrorists by going up against the--matching 
against the watch list that we have, the terrorist database. 
But allows through certain analysis to detect those who may be 
unknown to us, but exhibit certain behavior that can allow us 
to then prevent them from getting on a plane or doing 
additional screening at a time, so a number of different 
layers.
    Information sharing is critical to that and so that is why 
we are having the negotiations and having relationships with 
third parties and other countries to ensure that we have that 
information exchanged.
    Ms. Jackson Lee. There is only a little bit more time. 
Maybe in your answer you would also include whether we are 
invading a person's privacy on the behavioral aspect, but I 
think you are talking about utilizing as well.
    Ms. Callahan. So, I can take that one up, ma'am.
    With regard to information sharing, with regard to 
screening at the border, I think that we have done--the 
developments in the past decade have been extraordinary.
    But at the same time what has been important is the 
Department has included privacy protections as they develop 
these programs. I think that that is crucial for going forward.
    Mr. Bush. Yes, ma'am. I think you hit it on--right away the 
difference between the intelligence and information sharing and 
the need for the armor. I think both have to come in.
    Obviously with the increasing attempted acts of terror by 
those not on the watch list really stresses the need for the 
intelligence information sharing within the Federal Government, 
but also with our foreign partners.
    But once we identified a likely suspect, how can we then 
detect if they have something on them or attempting to get on a 
plane are two equally challenging areas.
    Ms. Jackson Lee. Thank you.
    I yield back.
    Mr. Meehan. Thank you, Ms. Jackson Lee.
    I have a couple of follow-up questions. I will certainly 
open the courtesy to the other Members of the committee who are 
here today if they would so like.
    But may I ask--well first, I want to follow up with what 
the gentlelady just said. The two important points, that 
aviation continues to be an area that is targeted to be sure, 
and the, you know, the concern we have that individuals will 
try to exploit that.
    But, Ms. Callahan, there has already been a great deal of 
work that has been done in terms of protecting the privacy of 
information as we move along. This has been part of the DHS 
mission. We constantly move forward and seek information.
    Oftentimes there is not enough attention paid to what we 
are doing with that information behind us or assuring that 
there are protections that are done. I think simply the fact 
that we are having this hearing identifies Congress' 
appreciation and desire to participate in this.
    As I have researched this and looked at this particular 
issue, there is something called fair information practice 
principles and other standards that are in place.
    Could you explain to us just what they are and how they 
help to secure the privacy of individuals both within the 
United States and outside?
    Ms. Callahan. Absolutely.
    Absolutely, sir, thank you for that question.
    The fair information practice principles are core elements 
of essentially all privacy laws throughout the world that has 
privacy laws. A basis of it was originally in the Privacy Act 
of 1974 which was the first National privacy act in the world.
    It is also embedded in the OECD Privacy Principles of 1980 
which, of course, is the genesis for both the European privacy 
law as well as the U.S. law.
    The Department of Homeland Security embeds the Fair 
Information Practice Principles, or the FIPPs within each of 
its activities associated with programs, technologies, systems, 
and information sharing. That is what my office does.
    The Fair Information Practice Principles include 
transparency, individual participation, purpose limitation, 
data security, data usage, access auditing and accountability, 
and redress.
    All of those elements are important cornerstones that I 
tried to address in my oral testimony to explain how PNR is an 
example of the Fair Information Practice Principles as 
implemented.
    Mr. Meehan. Can you give me an example of one of those and 
how that serves as a check against the abuse of that 
information?
    Ms. Callahan. Well, one of the points that the Ranking 
Member had said is wanting to be more clear with what we are 
doing with information.
    We have tried to be very transparent with the passenger 
name records and what we are doing. I look forward to any other 
opportunities to discuss it in order to do that.
    In addition, for example, the purpose limitation, to make 
sure that we are using passenger name records for terrorism, 
transnational serious crimes, as well as to identify 
individuals with whom we may want to have more border security 
to not have the potential for mission creep for example.
    Those are important elements and that is what my three 
audits that are available in my website all show that we are 
indeed adhering to the principles that we said we would when we 
first set up the program. That is a very important part of the 
Department.
    Mr. Meehan. One of the principles you identified was 
redress which allows an individual to challenge the information 
that is in there. So there is already, as I understand it under 
the FOIA, of the ability to obtain your own record and to 
request that there be changes in inaccurate information with 
respect to your own record.
    Did I understand your testimony correctly that there are 
some 220,000 foreign requests for FOIA?
    Ms. Callahan. Let me clarify. Two hundred and twenty 
thousand FOIA requests that we received from across the world. 
Of those we received them from 100-plus countries. But in terms 
of proportion, I can't tell you the proportion whether they are 
U.S. citizens here in the United States or also overseas.
    Mr. Meehan. Oh, but that may include U.S. citizens----
    Ms. Callahan. It absolutely does include U.S. citizens.
    Mr. Meehan. But that would be an important thing. I mean, I 
don't know that I need you to do this just to do it.
    But if there is some way to analyze and identify the 
breakdown that may be relevant to this question, I would like 
to know if we are seeing a disproportionate amount of requests 
from foreign nations.
    Ms. Callahan. The majority--about 75 percent of the FOIAs 
that we receive actually go to citizenship and immigration 
services associated with alien files, with their immigration 
records to obtain information about that.
    Mr. Meehan. That may be relevant to their interest in 
trying to obtain citizenship or other kinds of benefits.
    Ms. Callahan. Exactly.
    So I can tell you that that is where the majority of the 
requests come in. But a lot of those people are also 
naturalized U.S. citizens or legal permanent residents who are 
seeking their information.
    With regard to PNR, I can give you the breakdown for the 
69----
    Mr. Meehan. I just wanted to see if there was a dramatic 
imbalance for some particular reason.
    This last issue----
    Ms. Callahan. There doesn't appear to be----
    Mr. Meehan. But the redress is sufficient. Or I am seeing 
some concerns that somehow we should open up the courts for 
further redress in some--what is your position on that?
    Ms. Callahan. As I mentioned earlier, the traveler redress 
inquiry program that DHS has stood up is designed to be a one-
stop shop available on-line to multiple individuals regardless 
of where you are and for free.
    I think it is a very efficient and effective process that 
140,000 people have already sought redress through.
    With that said, the European standard thinks that a 
judicial redress opportunity would be one that would be better.
    If you go through a TRIP, you actually have the opportunity 
to go to court to challenge it. So therefore, I think that to 
request judicial redress, particularly with the use of PNR, it 
is probably not necessary because it already is available in 
the U.S. system.
    Mr. Meehan. Right.
    Well, thank you. My time has expired.
    I will now turn it over to the Ranking Member for any 
further questions she may have.
    Ms. Speier. Thank you, Mr. Chairman.
    Along those same lines, Ms. Callahan, of the 69 requests 
that you have had for redress, could you make the specifics of 
those cases or a handful of those cases available to the 
Chairman and the committee so that we can see what it is they 
are objecting--I would like to get a better sense of what the 
concern is.
    Because based on the 19 fields that you just listed--and I 
am a privacy queen. I mean, I have spent a good part of my 
career trying to protect people's privacy.
    I am not seeing where there is a potential even for abuse 
based on the information that is being shared.
    So, either you are taking this information and using it 
with other information you get from other sources, which if you 
are you need to explain that to us, or I am missing something.
    Ms. Callahan. If I could clarify what the 69 requests were.
    They are the request for FOIAs, so just to receive access 
to their information. Of those 69 FOIA requests--so we don't 
know if there is a redress problem with it per se.
    Of those 69 requests, about half of them come from American 
citizens who were seeking their own access. About a quarter of 
them come from the European Union, Canada, and Mexico, and a 
quarter come from the rest of the world. So it is just an 
interesting breakdown to see how it evolved.
    It originally was more heavily weighted towards Europeans, 
but now we are getting more from the rest of the world.
    With regard to the use and with regard to the access, as 
Mr. Heyman and Mr. Bush noted, the fields that are being 
provided are the fields that are being provided to an airline, 
and therefore they don't inherently have sensitive information 
in it.
    With that said, it is commercial data that the United 
States is acquiring as part of this Federal border security. So 
I do think it is important to note that when the U.S. 
Government acquires commercial information, we need to treat it 
very carefully.
    I think that that may be some of the reservations that 
people think because it was originally a commercial 
information, that that is the problem with it.
    With that said, the protections that we had put in place, I 
think, are very robust, very sufficient, and helped to 
ameliorate that concern, but also help us protect our borders 
in the ways that Mr. Bush described.
    Ms. Speier. But do you take that information and overlay it 
with other information you have within a database you have 
internally?
    Ms. Callahan. We do compare passenger name records with 
other datasets that Mr. Heyman talked about including ESTA, 
APIS--which is the Advanced Passenger Information System, the 
terrorist screening database, and a few other data fields--and 
criminal records as well. That is all disclosed in all of our 
public documents.
    Ms. Speier. A FOIA request by an individual would be able 
to access that information that you have?
    Ms. Callahan. If they asked for their passenger name 
records, it would not have that because the information is 
overlaid, compared, and then they go back to their separate 
databases.
    It is not stored in a unique setting. So it is not a 
Federal record under FOIA.
    With that that said they could ask for the information that 
Customs and Border Protection utilizes in order to make the 
border decisions. That is a way of having a broader aperture on 
the FOIA.
    Ms. Speier. Now, let us go back to the Shahzad case.
    He went through a series of screenings, still got on the 
plane. It was about to leave before he was apprehended.
    So where were the failings in the existing system? What 
kinds of changes have been made to make sure that doesn't 
happen again?
    Mr. Bush. I think the first improvement, ma'am, was the 
increased watch list service out of the Terrorism Screening 
Center.
    It had previously taken up to 24 hours to get someone 
watch-listed. That has now been streamlined and is real-time. 
So the soonest he would have checked in his name would hit on 
the watch list and I think it would have stopped there.
    The second thing is the time of which PNR is being 
submitted to the United States has intervals. It is not real-
time every time someone books a ticket or makes some changes.
    You had asked earlier, I believe--I apologize, if it wasn't 
you ma'am--the differences between this agreement and the 
previous ones.
    That is an example of an improvement. We are trying to get 
any change to the PNR in real time. We are trying to explain 
the value of that to the Europeans.
    Ms. Speier. So does the European Union object to that?
    Mr. Bush. I don't think they understand it yet to object to 
it. I think they are still trying to understand does that mean 
more data being provided, when we were saying if you originally 
purchased your ticket and you only change it one time, well 
then we don't need to have continual submissions of the same 
PNR.
    They are trying to understand that. I shouldn't say it is 
an objection at this point, but I can defer.
    Mr. Heyman. They are not objecting to it. I think they are 
just trying to understand it.
    It is a new concept, the idea of having real-time data. It 
is--for data minimization, so it is good for privacy. It is 
real-time accuracy, so it is good for data security--for 
National security.
    Ms. Speier. You know, for those in the European parliament 
that appear to be objecting to this negotiated agreement, I 
would argue that they are better served by this agreement than 
by the agreement that we are operating under, which to your 
perspective is broader and has less privacy protection.
    So I am kind of mystified by their logic. But, I will leave 
it at that.
    I yield back.
    Mr. Meehan. Mr. Heyman is not taking the bait.
    [Laughter.]
    Mr. Meehan. Ms. Hahn, do you have any follow-up questions?
    All right, well, I want to express my deep appreciation. It 
is a remarkable topic.
    I don't think most of America woke up this morning thinking 
that PNR was the first thing that was on their mind, but a few 
of us did. It does show the importance. You have identified the 
key role that this plays.
    I also really appreciate the interest of the committee in 
looking to assure that we are protecting the privacy interests 
as well. I think that is similarly a mission for this 
committee.
    I thank you for the work that you are doing on both.
    Just one following comment. Mr. Bush, we didn't get into 
the work that you are doing not just with terrorism, but I am 
impressed by the work that is done with human smuggling and 
other kinds of things looking at the pattern activity, and do 
believe that that is an area that we ought to keep working on.
    So I want to thank the witnesses for their valuable 
testimony, and the Members for their questions.
    The Members of the committee might have some additional 
questions for the witnesses, and we will ask that you respond 
to those in writing. The hearing record will be open for 10 
days.
    So without objection, the committee stands adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
